                                                                  Issue Date
                                                                           June 19, 2007
                                                                  Audit Report Number
                                                                           2007-CH-1008




TO:         Thomas S. Marshall, Director of Public Housing Hub, 5DPH



FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Dayton Metropolitan Housing Authority, Dayton, Ohio, Did Not Effectively
           Operate Its Section 8 Housing Choice Voucher Program

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Dayton Metropolitan Housing Authority’s (Authority) Section 8
             Housing Choice Voucher program (program). The audit was part of the activities
             in our fiscal year 2006 annual audit plan. We selected the Authority based upon
             our analysis of risk factors relating to the housing agencies in Region V’s
             jurisdiction. Our objective was to determine whether the Authority administered
             its program in accordance with the U.S. Department of Housing and Urban
             Development’s (HUD) requirements.

 What We Found

             The Authority’s program administration regarding housing unit conditions,
             abatement of units that did not meet housing quality standards, housing assistance
             payments calculations, and adequate documentation to support the calculation of
             households’ housing assistance payments was inadequate. Of the 59 housing
             units statistically selected for inspection, all 59 did not meet HUD’s housing
             quality standards, and 56 had 214 violations that existed at the time of the
             Authority’s previous inspections. The 56 units had between 1 and 11 preexisting
             violations per unit. Based on our statistical sample, we estimate that over the next
             year, HUD will pay nearly $1.8 million in housing assistance payments for units
             with housing quality standards violations.
           Program rents were not abated for units that failed the Authority’s quality control
           inspections. Five units that failed quality control inspections performed in
           December 2006 also failed quality control reinspections in January or February
           2007. However, the Authority failed to abate the program rents for the five units,
           resulting in an improper payment of nearly $3,900 in housing assistance and
           administrative fees.

           The Authority incorrectly calculated households’ payments, resulting in nearly
           $39,000 in overpayments and more than $1,500 in underpayments for the period
           January 2005 through August 2006. Based on our statistical sample, we estimate
           that over the next year, the Authority will overpay more than $1 million in
           housing assistance and utility allowance payments. The Authority did not ensure
           that its households’ files contained required documentation to support its housing
           assistance and utility allowance payments. Of the 67 files statistically selected for
           review, 37 did not contain documentation required by HUD and the Authority’s
           program administrative plan to support more than $254,000 in housing assistance
           and utility allowance payments.

           We informed the Authority’s executive director and the director of HUD’s
           Cleveland Office of Public Housing of minor deficiencies through a
           memorandum, dated June 7, 2007.

What We Recommend

           We recommend that the director of HUD’s Cleveland Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of more than $63,000 in program funds, provide documentation or
           reimburse its program more than $282,000 from nonfederal funds for the
           unsupported housing assistance payments and administrative fees, and implement
           adequate procedures and controls to address the findings cited in this audit report
           to prevent more than $2.8 million from being spent on units with material housing
           quality standards violations and excessive housing assistance.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our file review results and supporting schedules to the director of
           HUD’s Cleveland Office of Public Housing and the Authority’s executive director
           during the audit. We also provided our discussion draft audit report to the
           Authority’s executive director, its board chairman, and HUD’s staff during the
           audit. We held an exit conference with the executive director on May 24, 2007.




                                             2
We asked the executive director to provide comments on our discussion draft
audit report by June 4, 2007. The executive director provided written comments,
dated June 1, 2007, and generally agreed with our recommendations. The
complete text of the written comments, along with our evaluation of that response,
can be found in appendix B of this report.




                                3
                            TABLE OF CONTENTS

Background and Objective                                                           5

Results of Audit
      Finding 1: Controls over Housing Quality Standards Need Improvement          6

      Finding 2: Controls over Housing Assistance and Utility Allowance Payments
                 Were Inadequate                                                   13

Scope and Methodology                                                              17

Internal Controls                                                                  19

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               21
   B. Auditee Comments and OIG Evaluation                                          22
   C. Federal Requirements                                                         27




                                             4
                      BACKGROUND AND OBJECTIVE

The Dayton Metropolitan Housing Authority (Authority) was established under Section 3735.27
of the Ohio Revised Code to provide decent, safe, and sanitary housing. The Authority’s
jurisdiction encompasses all of Montgomery County, Ohio, with the exception of the Village of
Verona, Ohio. A seven-member board of commissioners governs the Authority. Since July
2005, two members have been appointed by the mayor of the City of Dayton (City), one of
whom is a resident of the Authority, one each have been appointed by the Montgomery County
Probate Court and the Montgomery County Common Pleas Court, and three have been appointed
by the Montgomery County Board of County Commissioners. Board appointments are for five-
year staggered terms. The Authority’s executive director is appointed by the board of
commissioners and is responsible for coordinating established policy and carrying out the
Authority’s day-to-day operations.

The Authority administers a Section 8 Housing Choice Voucher program (program) funded by
the U.S. Department of Housing and Urban Development (HUD). It provides assistance to low-
and moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing rents
with owners of existing private housing. As of February 2007, it had 3,462 units under contract
with annual housing assistance and utility allowance payments totaling more than $15.3 million
in program funds.

Our objective was to determine whether the Authority administered its program in accordance
with HUD’s requirements.




                                               5
                                 RESULTS OF AUDIT

Finding 1: Controls over Housing Quality Standards Need Improvement
The Authority did not adequately enforce HUD’s housing quality standards. Of the 59 program
units statistically selected for inspection, all 59 did not meet minimum housing quality standards,
and 56 had material violations that existed before the Authority’s previous inspections. Further,
the Authority did not follow its abatement procedures for program units that failed its quality
control inspections. The violations and the lack of abatements occurred because the Authority
lacked adequate procedures and controls to ensure that its program units met HUD’s housing
quality standards. As a result, nearly $21,000 in program funds was spent on units that were not
decent, safe, and sanitary. We estimate that over the next year, the Authority will pay nearly
$1.8 million in housing assistance on units with housing quality standards violations.



 HUD’s Housing Quality
 Standards Not Met

               From the 408 program units that passed the Authority’s inspections between
               November 1 and December 8, 2006, we statistically selected 59 units for
               inspection by using the U.S. Army Audit Agency’s Statistical Sampling System
               software. The 59 units were inspected to determine whether the Authority
               ensured that its program units met HUD’s housing quality standards. Our
               appraiser inspected the 59 units between January 16 and February 1, 2007.

               All 59 units inspected had a total of 792 housing quality standards violations. In
               addition, 56 units were considered to be in material noncompliance since they had
               exigent health and safety violations that predated the Authority’s previous
               inspections. Of the 792 violations, 19 units had 39 violations that were identified
               by the Authority during its previous inspections and were shown on the
               Authority’s inspection reports but were not corrected. The following table
               categorizes the 792 housing quality standards violations in the 59 units.




                                                 6
                                                                  Number of
                                  Category of violations          violations
                      Security                                       128
                      Electrical                                     92
                      Tub or shower in unit                          68
                      Other interior hazards                         54
                      Roof/gutters                                   44
                      Ventilation                                    44
                      Window                                         39
                      Exterior surfaces                              35
                      Range/refrigerator                             32
                      Heating equipment                              28
                      Water heater                                   28
                      Flush toilet in enclosed room                  27
                      Sink                                           26
                      Stairs, rails, and porches                     22
                      Garbage/debris/refuse disposal                 21
                      Interior stairs and common halls               18
                      Smoke detectors                                17
                      Floor                                          14
                      Plumbing/sewer/water supply                    12
                      Wall                                            9
                      Ceiling                                         9
                      Other hazards                                   9
                      Site and neighborhood                           5
                      Foundation                                      4
                      Infestation                                     3
                      Fire exits                                      2
                      Space for storage and preparation of food       1
                      Elevators                                       1
                                          Total                      792


            We provided our inspection results to the director of HUD’s Cleveland Office of
            Public Housing on March 16, 2007, and the Authority’s executive director on
            March 20, 2007.

Security Violations

            One hundred twenty-eight security violations were present in 43 of the
            Authority’s units inspected. The following items are examples of the security
            violations listed in the table: inoperative door locks, dead bolts and door hinges
            not properly installed and/or missing, doors not closing securely, and split door
            frames. The following pictures are examples of the security-related violations.




                                                   7
Unit #036090:
Improper double keyed
dead bolt and missing
standard lock and key
with handle.




Unit #023121: Entry
door frame severely
damaged and split;
door not secure when
closed.




Electrical Violations


               Ninety-two electrical violations were present in 30 of the Authority’s units
               inspected. The following items are examples of electrical violations listed in the
               table: no cover on junction box, electrical sockets placed upside down exposing
               wiring; main service panel and electrical meter not secured to building exterior,
               and exposed electrical wires. The following pictures are examples of the
               electrical-related violations identified.




                                                8
Unit #019153: Missing
cover for the electrical
panel in basement.




Unit #469801: Main
electrical wire bare and
exposed to weather
conditions entering the
unit.




Window Violations

                Thirty-nine window violations were present in 22 of the Authority’s units
                inspected. The following items are examples of window violations listed in the
                table: loose/missing glaze, rotting windows, replacement window smaller than
                exterior window frame, and plywood used to make a seal around the window.
                The following pictures are examples of the window-related violations identified.




                                                9
 Unit #458508: Window
 frame separated from
 home and replacement
 window not the proper
 size.




 Unit #000471: Window
 sides exposed more than
 1 inch and not sealed
 properly allowing air
 infiltration.




Quality Control Inspections Not
Performed in a Timely Manner

              The Authority did not perform its required supervisory quality control inspections
              in a timely manner. According to the Authority’s program administrative plan, 5
              percent of the total approved inspections completed each month must have a
              supervisory quality control inspection. Quality control inspections were not
              conducted from December 2005 through November 2006 because the Authority’s
              inspection services supervisor hired in January 2006 lacked adequate time to
              perform them. In December 2006, quality control inspections were performed on
              10 units inspected by the Authority in October 2006, and all units failed to meet
              HUD’s housing quality standards. During the January and February 2007 quality
              control reinspections, five still did not meet HUD’s housing quality standards. In
              accordance with HUD’s regulations at 24 CFR [Code of Federal Regulations]


                                              10
             982.404, the Authority must take prompt and vigorous action to enforce the
             owners’ obligations. Owners have 30 days to make the necessary repairs for
             routine violations and 24 hours for any life-threatening violations. The Authority
             must not make any housing assistance payments for a dwelling unit that fails to
             meet HUD’s housing quality standards.

             The Authority failed to abate the program housing assistance for the five units.
             At the time the quality control inspections were performed, the Authority’s
             computer system was not operational due to an equipment upgrade. However, the
             Authority’s responsible staff was never provided the documentation required for
             them to enter the data into the system once it became operational.

             Based on our inspection results, the Authority performed an inspection on March
             16, 2007, of the five units that failed the quality control reinspections in January
             and February 2007. The reinspection results showed that the repairs were
             completed for two units and because the repairs were not completed for the other
             three units, the housing assistance was abated beginning April 1, 2007. As a
             result, the Authority improperly paid $3,463 in housing assistance and received
             $389 in administrative fees for the five units during February and March 2007,
             and the households resided in units that were not decent, safe, and sanitary.

Conclusion

             The housing quality standards violations existed because the Authority failed to
             exercise proper supervision and oversight of its program unit inspections. It also
             lacked adequate procedures and controls to ensure that its program units met
             HUD’s housing quality standards. The Authority also failed to ensure that
             supervisory quality control inspections were completed timely and to abate units’
             housing assistance payments since the units did not meet housing quality
             standards. The Authority’s households were subjected to health- and safety-related
             violations and the Authority did not properly use its program funds when it failed
             to ensure that units complied with HUD’s housing quality standards. In
             accordance with 24 CFR [Code of Federal Regulations] 982.152(d), HUD is
             permitted to reduce or offset any program administrative fees paid to a public
             housing authority if it fails to enforce HUD’s housing quality standards. The
             Authority disbursed $18,783 in housing assistance payments for the 56 units that
             materially failed to meet HUD’s housing quality standards and received $2,180 in
             program administrative fees. Further, it inappropriately used $3,463 in program
             funds for the five units that failed its quality control reinspections and received
             $389 in program administrative fees.

             If the Authority implements adequate procedures and controls over its unit
             inspections to ensure compliance with HUD’s housing quality standards, we
             estimate that nearly $1.8 million in future housing assistance payments will be
             spent for units that are decent, safe, and sanitary. Our methodology for this
             estimate is explained in the Scope and Methodology section of this audit report.


                                              11
Recommendations

          We recommend that the director of HUD’s Cleveland Office of Public Housing
          require the Authority to

          1A.     Certify, along with the owners of the 59 units cited in the finding, that the
                  applicable housing quality standards violations have been repaired.

          1B.     Reimburse its program $20,963 from nonfederal funds ($18,783 for
                  housing assistance payments and $2,180 in associated administrative fees)
                  for the 56 units that materially failed to meet HUD’s housing quality
                  standards.

          1C.     Implement adequate procedures and controls to ensure that all units meet
                  HUD’s housing quality standards to prevent $1,793,340 in program funds
                  from being spent on units that are in noncompliance with the standards.

          1D.     Reimburse its program $3,852 ($3,463 for housing assistance payments
                  and $389 in associated administrative fees) from nonfederal funds for the
                  five units that failed to meet HUD’s housing quality standards and for
                  which the program rents were not abated in a timely manner.

          1E.     Implement adequate procedures and controls to ensure that supervisory
                  quality control inspections are conducted and documented, along with the
                  feedback provided to inspectors to correct recurring inspection
                  deficiencies noted.




                                            12
Finding 2: Controls over Housing Assistance and Utility Allowance
                      Payments Were Inadequate
The Authority failed to comply with HUD’s regulations and its program administrative plan
regarding housing assistance and utility allowance payments. It incorrectly calculated housing
assistance and utility allowance payments and lacked documentation to support housing
assistance and utility allowance payments to program landlords and households, respectively,
because it did not have adequate procedures and controls to ensure that HUD’s regulations and
its program administrative plan were appropriately followed. As a result, it overpaid more than
$38,000 and underpaid nearly $1,600 in housing assistance and utility allowance payments, and
was unable to support nearly $254,000 in housing assistance and utility allowance payments
made. Based upon our statistical sample, we estimate that over the next year, the Authority will
overpay more than $1 million in payments.


 Incorrect Housing Assistance
 and Utility Allowance Payments

              From the Authority’s 4,466 active program households as of November 15, 2006,
              we statistically selected 67 households’ files by using the U.S. Army Audit
              Agency’s Statistical Sampling System software. The 67 households’ files were
              reviewed to determine whether the Authority accurately verified and calculated
              the income information received from the households for their housing assistance
              and utility allowance payments for the period January 1, 2005, through August
              31, 2006. Our review was limited to the information maintained by the Authority
              in its households’ files.

              According to HUD’s regulations at 24 CFR [Code of Federal Regulations]
              5.240(c), public housing authorities must verify the accuracy of the income
              information received from program households and change the amount of the
              total tenant payment, tenant rent, or program housing assistance payment or
              terminate assistance, as appropriate, based on such information.

              The Authority’s miscalculations resulted in overpayments of $38,827 and
              underpayments of $1,591 in housing assistance and utility allowance payments.
              The Authority incorrectly calculated housing assistance and utility allowance
              payments for 38 of the 67 (57 percent) households in one or more of the annual
              certifications. It correctly calculated housing assistance payments for 27
              households. Two files did not contain enough information to determine whether
              the Authority correctly calculated the housing assistance and utility allowance
              payments. The 38 files contained the following errors:

                      ¾ 33 had total tenant payment calculation errors for one or more years,
                      ¾ 25 had annual income calculation errors for one or more years,
                      ¾ 15 had utility assistance payment calculation errors for one or more
                        years,


                                               13
                  ¾ 10 had total tenant payment determinations,
                  ¾ Three annual income determinations,
                  ¾ Three had incorrect utility allowance determinations,
                  ¾ Two utility allowance payment determinations,
                  ¾ One had payments made after the household moved out of the unit,
                    and
                  ¾ One had payments that were not made according to the family report.

           The errors occurred because the Authority did not use the appropriate annual
           income amounts, program payment standards, utility allowances, deduction
           allowances; repayment agreements and/or interim certifications were not
           established; there were repayment agreements with an outstanding balance,
           annual certifications were not processed in a timely manner; payments were not
           made according to the certification; and/or payments were made for months after
           the household moved out. Therefore, overpayments and underpayments of
           housing assistance and utility allowances occurred. As a result, program funds
           were not used efficiently and effectively.

The Authority Lacked
Documentation to Support
More Than $254,000 in Housing
Assistance and Utility
Allowance Payments


           The Authority lacked documentation to support housing assistance and utility
           allowance payments totaling $254,273 for the period January 2005 through
           August 2006. Of the 67 household files statistically selected for review, 37 (55
           percent) were missing or had incomplete documents as follows:

              ¾ 28 were missing proof of a criminal activity screening;
              ¾ 21 were missing a final housing application;
              ¾ 13 were missing a declaration of U.S. citizenship certifications;
              ¾ 11 were missing HUD Form 52517, Request for Tenancy Approval;
              ¾ Nine were missing proof of Social Security numbers;
              ¾ Eight were missing proof of legal identity;
              ¾ Six were missing disclosures of information on lead-based paint;
              ¾ Five were missing HUD Form 50058, Family Report;
              ¾ Four were missing a lease agreement;
              ¾ Four were missing HUD Form 52641, Housing Assistance Payment
                Contract;
              ¾ Four were missing HUD Form 52641-A, Tenancy Addendum; and
              ¾ Three were missing HUD Form 9886, Authorization for the Release of
                Information and Privacy Act Notice.

           The 37 files did not include documentation required by HUD’s regulations and
           the Authority’s program administrative plan.


                                           14
             HUD performed a rental integrity monitoring review in July 2003 and a rental
             integrity monitoring re-review in August 2004. The 2003 review identified that
             the Authority’s household files contained errors similar to the ones cited in this
             finding. HUD’s 2004 re-review revealed that the Authority’s household files still
             included errors. HUD and the Authority had been aware of the file errors since
             July 2003. As previously discussed, the Authority’s maintenance of required
             documentation in its household files continues to be a problem. The Authority
             failed to correct this issue for nearly four years.

The Authority’s Procedures
and Controls Had Weaknesses


             The weaknesses regarding incorrect calculations, missing documentation, and
             inappropriate payments occurred because the Authority lacked adequate
             procedures and controls to ensure that it appropriately followed HUD’s
             regulations and its program administrative plan. It did not ensure that it fully
             implemented HUD’s regulations and its administrative plan and standardized
             household certifications and file management procedures. The program
             administrative plan also did not address how households would be reimbursed
             when an underpayment of housing assistance payment occurred.

Conclusion

             The Authority did not properly use its program funds when it failed to comply
             with HUD’s regulations and its administrative plan. In accordance with 24 CFR
             [Code of Federal Regulations] 982.152(d), HUD may reduce or offset any
             administrative fee to a public housing authority, in the amount determined by
             HUD, if the authority fails to perform its administrative responsibilities correctly
             or adequately under the program.

             As previously mentioned, the Authority disbursed $254,273 in housing assistance
             and utility allowance payments without supporting documentation and overpaid
             $38,827 and underpaid $1,591 in housing assistance and utility allowance
             payments. In addition, it received $27,812 in program administrative fees related
             to the unsupported payments for the 37 program households.

             If the Authority implements adequate procedures and controls over its housing
             asistance and utility allowance payments to ensure compliance with HUD’s
             regulations and its program administrative plan, we estimate that more than $1
             million in payments will be accurately spent over the next year based on the error
             rate found in our sample. Our methodology for this estimate is explained in the
             Scope and Methodology section of this audit report.




                                              15
Recommendations

             We recommend that the director of HUD’s Cleveland Office of Public
             Housing require the Authority to

             2A.    Reimburse its program $38,827 for the overpayment of housing
                    assistance and utility allowance payments cited in this finding from
                    nonfederal funds.

             2B.    Reimburse the appropriate households $1,591 for the underpayment of
                    housing assistance and utility allowance payments from program
                    funds.

             2C.    Provide supporting documentation or reimburse its program $282,085
                    ($254,273 in housing assistance and utility allowance payments and
                    $27,812 in associated administrative fees) from nonfederal funds for
                    the unsupported payments and associated administrative fees related to
                    the 37 households cited in this finding.

             2D.    Implement adequate procedures and controls over its housing
                    assistance and utility allowance payments to ensure that they meet
                    HUD’s regulations and its program administrative plan. The
                    procedures and controls should include but not be limited to ensuring,
                    that all required documentation is maintained in the Authority’s current
                    household files to support housing assistance and utility allowance
                    payments and that payment calculations are correct. By implementing
                    adequate procedures and controls, the Authority should help ensure that
                    $1,059,175 in program funds is appropriately used for future
                    payments.

             2E.    Revise its program administrative plan to address how households will
                    be reimbursed when an underpayment of housing assistance or utility
                    allowance occurs.




                                         16
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

•       Applicable laws; regulations; the Authority’s 2005 program administrative plan; and HUD’s
        program requirements at 24 CFR [Code of Federal Regulations] Parts 5 and 982; HUD’s
        Public and Indian Housing Notices 2004-12, 2005-9, 2005-24, 2005-28, and 2006-3; and
        HUD’s Housing Choice Voucher Guidebook 7420.10.

•       The Authority’s accounting records; annual audited financial statements for 2003, 2004, and
        2005; general ledgers; household files; computerized databases; policies and procedures;
        board meeting minutes for 2005 and 2006; organizational chart; and program annual
        contributions contract.

•       HUD’s files for the Authority.

We also interviewed the Authority’s employees, HUD staff, and program households.

We statistically selected 59 of the Authority’s program units to inspect using the U.S. Army
Audit Agency’s Statistical Sampling software from the 408 units that were inspected by the
Authority from November 1 through December 8, 2006. The 59 units were selected to determine
whether the Authority ensured that its program units met HUD’s housing quality standards. Our
sampling criteria used a 90 percent confidence level, 50 percent estimated error rate, and
precision level of plus or minus 10 percent.

Our sampling results determined that 56 units materially failed to meet HUD’s housing quality
standards. Materially failed units were those with exigent health and safety violations that
predated the Authority’s previous inspections.

The Authority’s November and December 2006 and January 2007 Voucher Management System
reports showed that the average monthly housing assistance payment was $405. Projecting our
sampling results of the 56 units that materially failed to meet HUD’s housing quality standards to
the population indicates that 369 units or 90.56 percent of the population contains the attributes
tested (would materially fail to meet HUD’s housing quality standards). The sampling error is
plus or minus 4.35 percent. In other words, we are 90 percent confident that the frequency of
occurrence of the attributes tested lies between 90.56 and 99.27 percent of the population. This
equates to an occurrence of between 369 and 405 units of the 408 units in the population.

    •   The lower limit is 90.56 percent times 408 units = 369 units that materially failed to meet
        HUD’s housing quality standards.
    •   The point estimate is 94.92 percent times 408 units = 388 units that materially failed to
        meet HUD’s housing quality standards.
    •   The upper limit is 99.27 percent times 408 units = 405 units that materially failed to meet
        HUD’s housing quality standards.




                                                17
Using the lower limit of the estimate of the number of units and the average housing assistance
payment, we estimated that the Authority will annually spend $1,793,340 (369 units times $405
average payment times 12 months) for units that materially failed to meet HUD’s housing quality
standards. This estimate is presented solely to demonstrate the annual amount of program funds
that could be put to better use on decent, safe, and sanitary housing if the Authority implements
our recommendation. While these benefits would recur indefinitely, we were conservative in our
approach and only included the initial year in our estimate. We also considered that (1) the
Authority did not identify many of the preexisting violations during its most recent inspections,
(2) the units would not be scheduled for reinspection for another year under normal
circumstances, and (3) it would take the Authority at least a year to complete all inspections
under an improved inspection process.

From the Authority’s 4,466 active program households as of November 15, 2006, we statistically
selected 67 households’ files for review by using the U.S. Army Audit Agency’s Statistical
Sampling software. We reviewed the 67 files to determine whether the Authority maintained
adequate documentation to support the households’ admission and selection for its program. We
also reviewed the 67 files to determine whether the Authority accurately verified and calculated
the income information received from the households for its housing assistance and utility
allowance payments for the period January1, 2005, through August 31, 2006. The Authority
incorrectly calculated payments for 38 of the 67 files reviewed. This resulted in total
miscalculation of payments by $40,418—to include overpayments of $38,827 and
underpayments of $1,591 in housing assistance and utility allowances.

Unless the Authority improves its calculation process, we estimate that it could make $1,059,175
in future excessive housing assistance and utility allowance payments. We determined this
amount by multiplying 6.9 percent (the percentage of the total housing assistance and utility
allowance for the 67 households’ files in the sample that received excessive payments) times
$15,350,360 (the total payments for the population of households served). We determined the
6.9 percent by annualizing the net excessive payments of $37,236 ($38,827 in overpayments
minus $1,591 in underpayments divided by the audit period of 20 months times 12 months, or
$22,342) for our sample of 67 households divided by the $325,620 in housing assistance and
utility allowance payments for one year (67 households times $405 which is the average monthly
housing assistance payment times 12 months). This estimate is presented solely to demonstrate
the annual amount of program funds that could be put to better use on appropriate payments if
the Authority implements our recommendation. While these benefits would recur indefinitely,
we were conservative in our approach and only included the initial year in our estimate.

We performed our on-site audit work between October 2006 and April 2007 at the Authority’s
offices located at 400 Wayne Avenue and 225 West First Street, Dayton, Ohio. The audit
covered the period from January 1, 2005, through August 31, 2006, but was expanded when
necessary to include other periods.

We performed our audit in accordance with generally accepted government auditing standards.




                                               18
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               19
Significant Weaknesses

           Based on our review, we believe the following item is a significant weakness:

           •   The Authority lacked sufficient procedures and controls to ensure compliance
               with HUD’s regulations and/or its program administrative plan regarding unit
               inspections, abatement for units that did not meet housing quality standards,
               household files, and housing assistance and utility allowance payments (see
               findings 1 and 2).




                                            20
                                   APPENDIXES

Appendix A

             SCHEDULE OF QUESTIONED COSTS
            AND FUNDS TO BE PUT TO BETTER USE

        Recommendation                                              Funds to be put
            number              Ineligible 1/     Unsupported 2/     to better use 3/
               1B                    $20,963
               1C                                                        $1,793,340
               1D                      3,852
               2A                     38,827
               2B                                                              1,591
               2C                                       $282,085
               2D                                                         1,059,175
              Totals                $63,642             $282,085         $2,854,106


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or federal, state,
     or local policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured
     program or activity when we cannot determine eligibility at the time of audit.
     Unsupported costs require a decision by HUD program officials. This decision, in
     addition to obtaining supporting documentation, might involve a legal interpretation
     or clarification of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could
     be used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal
     of interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other
     savings which are specifically identified. In theses instances, if the Authority
     implements our recommendations, it will cease to incur program costs for units that
     are not decent, safe, and sanitary and for excessive housing assistance payments and,
     instead, will expend those funds in accordance with HUD’s requirements. Once the
     Authority successfully improves its controls, this will be a recurring benefit. Our
     estimate reflects only the initial year of this benefit.




                                             21
Appendix B

       AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                        22
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                        23
Ref to OIG Evaluation   Auditee Comments




Comment 4




                        24
Ref to OIG Evaluation   Auditee Comments




                        25
                       OIG Evaluation of Auditee Comments

Comment 1   Our audit cites that all 59 units inspected had a total of 792 housing quality
            standards violations. While this would equate to 13 citations per units, we
            focused on the 56 units that materially failed inspections. Materially failed
            units were those with exigent health and safety violations that predated the
            Authority’s previous inspections. We provided the results of our inspections
            to the Authority on March 20, 2007. Our appraiser used the information
            contained on the Authority’s previous inspection reports as well as
            information received from the applicable households. The households were
            specifically asked if the exigent health and safety violations existed at the time
            of the Authority’s previous inspections. All failing items were included in our
            inspection results. We agree that there were failing items that are not within
            the Authority’s control, but these items must still be reported as housing
            quality standards violations and corrected per HUD’s requirements.

Comment 2   We conducted our inspections between January 16 and February 1, 2007, for
            the 59 units that passed the Authority’s inspections between November 1 and
            December 8, 2006. Ninety-three days would be the longest time lapse
            between the Authority’s inspections and our appraiser’s inspections. Our
            inspections included units that the Authority had inspected and passed in the
            previous 77 to 93 days.

Comment 3   We agree that the Authority’s actions to reinspect all 59 units inspected during
            our audit are indicative of its concern for its program and households. The
            Authority indicated during the exit conference that it had removed
            nonconforming landlords and their respective units from the program.

Comment 4   The Authority’s July 1999 program administrative plan, chapter 4, section E,
            makes reference to denying admission to families that have engaged in drug-
            related or violent criminal activity. Initial screening will be composed of
            checks through the LEADS system through the State Highway Patrol.




                                           26
Appendix C

                         FEDERAL REQUIREMENTS

Finding 1
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that HUD may
reduce or offset any administrative fee to a public housing authority, in the amount
determined by HUD, if the authority fails to perform its administrative responsibilities
correctly or adequately under the program, such as not enforcing HUD’s housing quality
standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.305(a) state that the public
housing authority may not give approval for the family of the assisted tenancy or execute a
housing assistance contract until the authority has determined that all the following meet
program requirements: (1) the unit is eligible, and (2) the unit has been inspected by the
authority and passes HUD’s housing quality standards.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.401 require that all
program housing meet HUD’s housing quality standards performance requirements, both at
commencement of assisted occupancy and throughout the tenancy.

HUD’s regulations 24 CFR [Code of Federal Regulations] 982.404 (a) state that the owner
must maintain the unit in accordance with HUD’s housing quality standards. If the owner
fails to maintain the dwelling unit in accordance with HUD’s housing quality standards, the
authority must take prompt and vigorous action to enforce the owner obligations. Remedies
for such breach of the housing quality standards include termination, suspension or reduction
of housing assistance payments, and termination of the housing assistance payments contract.
The authority must not make any housing assistance payments for a dwelling unit that fails to
meet the housing quality standards unless the owner corrects the defect within the period
specified by the authority and the authority verifies the correction. If a defect is life
threatening, the owner must correct the defect within no more than 24 hours. For other
defects, the owner must correct the defect within no more than 30 calendar days (or any
public housing authority-approved extension).

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.405(a) require public
housing authorities to perform unit inspections before the initial move-in and at least
annually. The authority must inspect the unit leased to a family before the term of the lease,
at least annually during assisted occupancy, and at other times as needed to determine
whether the unit meets housing quality standards.

Finding 2
HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.216(a) state that each
assistance applicant must submit the complete and accurate Social Security number assigned
to the applicant and to each member of the household who is at least six years of age. The


                                              27
documentation necessary to verify the Social Security number of an individual is a valid
Social Security number issued by the Social Security Administration or such other evidence
of the Social Security number as HUD and, where applicable, the authority may prescribe in
administrative instructions.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.230(a) require each member
of the family of an assistance applicant or participant who is at least 18 years of age and each
family head and spouse regardless of age to sign one or more consent forms.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.508(b) require each family
member, regardless of age, to submit the following evidence to the responsible entity:

(1) For U.S. citizens or U.S. nationals, the evidence consists of a signed declaration of U.S.
citizenship or U.S. nationality. The responsible entity may request verification of the
declaration by requiring presentation of a U.S. passport or other appropriate documentation,
as specified in HUD guidance.

(2) For noncitizens who are 62 years of age or older or who will be 62 years of age or older
and receiving assistance under a Section 214-covered program on September 30, 1996, or
applying for assistance on or after that date, the evidence consists of a signed declaration of
eligible immigration status and proof of age document.

(3) For all other noncitizens, the evidence consists of a signed declaration of eligible
immigration status, one of the documents referred to in 5.510, and a signed verification
consent form.

(c) Declaration: (1) For each family member who contends that he or she is a U.S. citizen or
a noncitizen with eligible immigration status, the family must submit to the responsible entity
a written declaration, signed under penalty of perjury, by which the family member declares
whether he or she is a U.S. citizen or a noncitizen with eligible immigration status. (i) For
each adult, the declaration must be signed by the adult. (ii) For each child, the declaration
must be signed by an adult residing in the assisted dwelling unit who is responsible for the
child.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 5.901(a) include requirements
that apply to criminal conviction background checks by public housing authorities that
administer Section 8 and public housing programs when they obtain criminal conviction
records, under the authority of section 6(q) of the 1937 Act (United States Code
42.1437d(q)), from a law enforcement agency to prevent admission of criminals to public
housing and Section 8 housing and to assist in lease enforcement and eviction.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.4 state that the voucher is
the document issued by the authority to a family selected for admission to the voucher
program. This document describes the program and procedures for the authority’s approval
of a unit selected by the family. The voucher also states obligations of the family under to
the program.




                                               28
HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.153 state that the public
housing authority must comply with the consolidated annual contributions contract, the
application, HUD regulations and other requirements, and its program administrative plan.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.158(a) state that the public
housing authority must maintain complete and accurate accounts and other records for the
program in accordance with HUD requirements in a manner that permits a speedy and
effective audit. The authority must prepare a unit inspection report. During the term of each
assisted lease and for at least three years thereafter, the authority must keep (1) a copy of the
executed lease, (2) the housing assistance payment contract, and (3) the application from the
family. The authority must keep the following records for at least three years: records that
provide income, racial, ethnic, gender, and disability status data on program applicants and
participants; unit inspection reports; lead-based paint records as required by part 35, subpart
B of this title; records to document the basis for authority determination that rent to owner is
a reasonable rent (initially and during the term of a contract); and other records specified by
HUD.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.162(a)(3) state that the
authority must use program contracts and other forms required by HUD headquarters
including the tenancy addendum required by HUD.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.305(d) state that after
receiving the family’s request for approval of the assisted tenancy, the housing authority
must promptly notify the family and owner of whether the assisted tenancy is approved.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.311(d) state that if the
family moves out of the unit, the authority may not make any housing assistance payment to
the owner for any month after the month when the family moves out. The owner may keep
the housing assistance payment for the month when the family moves out of the unit.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.505(B)(4) state that if the
payment standard amount is increased during the term of the contract, the increased payment
standard amount shall be used to calculate the monthly housing assistance payment for the
family beginning at the effective date of the family’s first regular reexamination on or after
the effective date of the increase in the payment standard amount.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.516(a)(1) require the
authority to conduct a reexamination of family income and composition at least annually.
The authority must obtain and document in the client file third-party verification of the
following factors or must document in the client file why third-party verification was not
available: (i) reported family annual income, (ii) the value of assets, (iii) expenses related to
deductions from annual income, and (iv) other factors that affect the determination of
adjusted income. At any time, the authority may conduct an interim reexamination of family
income and composition. Interim examinations must be conducted in accordance with
policies in the authority’s administrative plan. As a condition of admission to or continued
assistance under the program, the authority shall require the family head and such other
family members as the authority designates to execute a HUD-approved release and consent
form (including any release and consent as required under 5.230 of this title) authorizing any


                                               29
depository or private source of income or any federal, state, or local agency to furnish or
release to the authority or HUD such information as the public housing authority or HUD
determines to be necessary. The authority and HUD must limit the use or disclosure of
information obtained from a family or from another source pursuant to this release and
consent to purposes directly in connection with administration of the program.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.517(a) state that the
authority must maintain a utility allowance schedule for all client-paid utilities, for cost of
client-supplied refrigerators and ranges, and for other client-paid housing services.




                                                30
